No. 19-1069
INTHE

~upreme

QCourt of tbe Wniteb ~tates

TAKEDA PHARMACEUTICAL COMPANY LIMITED,

v.

et al.,

Petitioners,

PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FuND, et al.,

Respondents.

CERTIFICATE OF SERVICE
I, Peter B. Siegal, a member of the Bar of this Court, certify that on this 2d
day of March, 2020, the attached letter was sent by first class mail, postage prepaid,
to:
Brent Wisner
Baum Hedlund Aristei & Goldman PLC
10940 Wilshire Boulevard, 17th Floor
Los Angeles, CA 90024
(310) 820-6231

Counsel for Respondents Painters and Allied Trades District
Council 82 Health Care Fund, Annie M Snyder, Rickey D. Rose,
John Cardarelli, Marlyon K Buckner, and Sylvie Bigord
I further certify that all parties required to be served have been served.

p~

NORTON ROSE FULBRIGHT US LLP

799 9th Street, N.W., Suite 1000
Washington, D. C. 20001
(202) 662-4663

Counsel for Petitioners

